<html>
<title> - HOMELAND SECURITY INTELLIGENCE AT A CROSSROADS: THE OFFICE OF INTELLIGENCE AND ANALYSIS' VISION FOR 2008</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




     HOMELAND SECURITY INTELLIGENCE AT A CROSSROADS: THE OFFICE OF 
               INTELLIGENCE AND ANALYSIS' VISION FOR 2008

=======================================================================

                                HEARING

                               before the

           SUBCOMMITTEE ON INTELLIGENCE, INFORMATION SHARING,
                     AND TERRORISM RISK ASSESSMENT

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 26, 2008

                               __________

                           Serial No. 110-96

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________


                     U.S. GOVERNMENT PRINTING OFFICE

44-394 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001























                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman

Loretta Sanchez, California          Peter T. King, New York
Edward J. Markey, Massachusetts      Lamar Smith, Texas
Norman D. Dicks, Washington          Christopher Shays, Connecticut
Jane Harman, California              Mark E. Souder, Indiana
Peter A. DeFazio, Oregon             Tom Davis, Virginia
Nita M. Lowey, New York              Daniel E. Lungren, California
Eleanor Holmes Norton, District of   Mike Rogers, Alabama
Columbia                             David G. Reichert, Washington
Zoe Lofgren, California              Michael T. McCaul, Texas
Sheila Jackson Lee, Texas            Charles W. Dent, Pennsylvania
Donna M. Christensen, U.S. Virgin    Ginny Brown-Waite, Florida
Islands                              Gus M. Bilirakis, Florida
Bob Etheridge, North Carolina        David Davis, Tennessee
James R. Langevin, Rhode Island      Paul C. Broun, Georgia
Henry Cuellar, Texas
Christopher P. Carney, Pennsylvania
Yvette D. Clarke, New York
Al Green, Texas
Ed Perlmutter, Colorado
Bill Pascrell, Jr., New Jersey

       Jessica Herrera-Flanigan, Staff Director & General Counsel
                        Todd Gee, Chief Counsel
                     Michael Twinchek, Chief Clerk
                Robert O'Connor, Minority Staff Director

                                 ______

 SUBCOMMITTEE ON INTELLIGENCE, INFORMATION SHARING, AND TERRORISM RISK 
                               ASSESSMENT

                     Jane Harman, California, Chair

Norman D. Dicks, Washington          David G. Reichert, Washington
James R. Langevin, Rhode Island      Christopher Shays, Connecticut
Christopher P. Carney, Pennsylvania  Charles W. Dent, Pennsylvania
Ed Perlmutter, Colorado              Peter T. King, New York (Ex 
Bennie G. Thompson, Mississippi (Ex  Officio)
Officio)

                 Thomas M. Finan, Director and Counsel
                        Brandon Declet, Counsel
                   Natalie Nixon, Deputy Chief Clerk
        Deron McElroy, Minority Senior Professional Staff Member

                                  (II)





























                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Jane Harman, a Representative in Congress From the 
  State of California, and Chair, Subcommittee on Intelligence, 
  Information Sharing, and Terrorism Risk Assessment.............     1
The Honorable David G. Reichert, a Representative in Congress 
  From the State of Washington, and Ranking Member, Subcommittee 
  on Intelligence, Information Sharing, and Terrorism Risk 
  Assessment.....................................................     2

                               Witnesses

Mr. Charles E. Allen, Under Secretary for Intelligence and 
  Analysis, Department of Homeland Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     6













 
     HOMELAND SECURITY INTELLIGENCE AT A CROSSROADS: THE OFFICE OF 
               INTELLIGENCE AND ANALYSIS' VISION FOR 2008

                              ----------                              


                       Tuesday, February 26, 2008

             U.S. House of Representatives,
                    Committee on Homeland Security,
    Subcommittee on Intelligence, Information Sharing, and 
                                 Terrorism Risk Assessment,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 4:20 p.m., in 
Room 311, Cannon House Office Building, Hon. Jane Harman [Chair 
of the subcommittee] presiding.
    Present: Representatives Harman, Carney, Perlmutter, and 
Reichert.
    Ms. Harman. The committee will come to order. We are 
meeting today to receive testimony on ``Homeland Security 
Intelligence at a Crossroads: The Office of Intelligence and 
Analysis' Vision For 2008''.
    Let me apologize to our audience and our witness for having 
to reschedule this hearing and having to delay the classified 
briefing which preceded this hearing. All of that was required 
because of the House schedule. None of us on this subcommittee 
sets the House schedule; and our apologies.
    Our witness today is Under Secretary Charles Allen.
    Charlie, we are here to discuss your priorities in the wake 
of the President's budget request. But as you have been warned, 
I want to discuss one of my priorities first in introducing the 
hearing; and I believe it is a priority not just for me, but 
for every Member of this subcommittee and, so far as I can 
tell, for a huge number of the first responders that we talk to 
around the country.
    I&A is not a vacuum. Of all the agencies across the Federal 
Government, DHS was the one Congress expected would make 
breaking down stovepipes its No. 1 priority. As the National 
Counterterrorism Center, the FBI and others have adjusted their 
missions to do this, it still seems that your office in DHS is 
too much of a stovepipe.
    I&A's mandate in the Homeland Security Act of 2002 was 
straightforward: Find out the needs of State and locals and 
then build an organization to meet them. Instead, as the CENTRA 
report discussed in today's Wall Street Journal makes clear, 
I&A is still struggling with this mission 2 years after you 
came on board, Charlie. Some of your struggle, we believe, is 
in the wrong direction. I have a major issue with I&A's endless 
refusal, or let's call it ``delay,'' to build a robust ITACG 
that includes a robust State, local and tribal presence that 
all of us believe would help make the NCTC our national Fusion 
Center a better processor of intelligence information.
    Although you promised last year that your staff would make 
a full effort to ensure the ITACG's success, and although you 
told us you were proud to be leading the effort, you did not 
have it going in a few weeks as you promised you would. When 
little happened, Congress spelled out what the ITACG needed to 
do in the legislation we recently passed, H.R. 1, the 9/11 Act 
and in the joint explanatory statement that accompanied it. It 
has been almost 7 months since the President signed the 9/11 
Act into law, and we have seen since that there are continuing 
obstacles in the ITACG's path.
    Last summer at the tail end of the 9/11 bill negotiations, 
you and former Deputy Secretary Michael Jackson came to my 
office to make the case for why the ITACG should not be 
included in our bill. You both explained that DHS had done so 
much for State and locals, it wasn't necessary. We, to the 
contrary, believed that you had not done enough and that it was 
necessary. So we included it in our bill.
    On the eve of Mr. Jackson's retirement, he promised that he 
would sign the memorandum of agreement that had to do with 
agency cooperation with the ITACG. At the last minute, the last 
evening he was at work at DHS, he inserted, or you inserted, 
some addenda to the agreement which the other agencies signed 
on to which did two things.
    First, it made clear that DHS could control the information 
it disseminates. No one has ever argued with that, but that had 
to be added. But second, it just complicated, so I understand, 
the process of getting people full-time into the ITACG.
    The ITACG is not going to go away; and I want to say, in 
friendship and partnership, that this committee will continue 
to insist that we build a robust presence of State and locals 
and tribals as part of our national fusion effort. It is 
valuable because they bring value. It is also valuable because 
they can learn from the reading of the intelligence information 
that the NCTC has, that way, we will have fewer false alarms at 
the local level and that way we will have better products at 
the local level.
    So as we discuss your mission, which I am eager to do, and 
as we have been briefed on some additional budget requirements 
you have--budget numbers are classified, so we won't discuss 
them--I just want to be clear that my priority is learning how 
you are going to be a better partner with the other Federal 
agencies in this effort to fully share information with our 
local communities, so that they know what to look for and what 
to do, and they are capable of preventing the next attack, 
which is, after all, a goal we all share.
    I now yield for an opening statement to the Ranking Member.
    Mr. Reichert. Thank you, Madam Chair. Welcome, Mr. Allen, 
once again. Thank you for coming before us this week.
    Some of my comments will also touch on some of the things 
that the Chair has already touched on. We are here to hear a 
little bit about your plan for different dollar figures and 
your outlook for the year. But I, as you know, in my previous 
life as a local law enforcement officer and sheriff in the 
Seattle area, am really interested in how these plans and 
programs come together and translate into results for, you 
know, the cops on the street and the front lines, who are on 
the front lines in our community.
    For example, State and localities around the Nation have 
formed fusion centers, which we all agree are great things; and 
they are growing and improving, and their job is to bring 
together information on crimes and terrorism so that they might 
be better able to prevent a terrorist attack.
    These fusion centers also help analysts recognize patterns 
in crime that may indicate precursors of terrorist activity, as 
we saw in the case that we examined in Torrance. I understand 
that the Department of Homeland Security has plans to send 
additional analysts--in Seattle we do have one, and we 
appreciate his support--out to other States and local fusion 
centers; and we would like to hear how your budget would 
accomplish this.
    I think we have talked about this topic before in some of 
our other hearings. That is one important point I hope you 
address in your opening comments.
    Additionally, this morning there was a story in The Wall 
Street Journal about an internal report on fusion centers and 
information sharing at the Department; and I hope that you will 
address that issue in your opening comments. You have very 
strong support for your Fusion Center initiative from this 
subcommittee, and we would like to help you and our State and 
local fusion centers accomplish the goal of protecting this 
Nation from harm.
    You also have responsibility to provide intelligence 
support to a wide range of communities, including the border, 
port, transportation and private sectors. We would like to hear 
how in this budget this will allow you to accomplish that wide-
ranging mission.
    Recently, I asked Secretary Chertoff, when he appeared 
before the full committee, about what is being done to help 
secure the northern borders. So we are interested in that, of 
course, from Washington State's perspective. I believe it is 
essential that our port and border officials, transportation 
authorities and others receive robust intelligence support from 
the Department.
    Finally, I hope that you touch upon some of your expanded 
work in the area of open source intelligence, which creates 
products that can be easily shared and at an unclassified 
level. As you know, we are very interested in the issue of 
overclassification; and it seems to me that a big piece of 
combating overclassification is to consciously create as many 
unclassified intel products as possible, and open source is a 
big part of that fact.
    Mr. Allen, we once again welcome you and your testimony on 
how the Office of Intelligence and Analysis is working to 
strengthen our Nation's intelligence community and secure our 
homeland.
    I yield back, Madam Chair. Thank you.
    Ms. Harman. I thank the Ranking Member.
    Other Members of the subcommittee are reminded that under 
committee rules, opening statements may be submitted for the 
record.
    Our first and only witness, Under Secretary Charles Allen, 
is the Department's chief intelligence officer.
    By the way, Charlie, congratulations on your promotion to 
under secretary. We all supported that idea, and we think it is 
a great credit to you.
    Under your lead, the Department's intelligence work through 
the Office of Intelligence and Analysis--and you focused on 
improving the analysis and sharing of terrorist threat 
information. You are responsible for ensuring that information 
is gathered from the Department component intelligence units as 
well as Federal, State, local, tribal and private sector 
partners, and it is your job to ensure that this information is 
fused with intelligence from other parts of the intelligence 
community to produce analytic products and services for the 
Department's customers.
    Without objection, Under Secretary Allen's full statement 
will be inserted in the record. I now ask you to summarize your 
statement in 5 minutes, and then we will ask you questions.

STATEMENT OF CHARLES E. ALLEN, UNDER SECRETARY FOR INTELLIGENCE 
         AND ANALYSIS, DEPARTMENT OF HOMELAND SECURITY

    Mr. Allen. Thank you, Chair Harman and Ranking Member 
Reichert and other Members of the committee.
    I really would like to talk about the progress we have made 
in building a strong and unified DHS Intelligence enterprise 
and the challenges that we face in the days ahead. I hope in 
the question-and-answer period to answer fully all your 
questions and all your observations.
    The DHS community of intelligence professionals, which I 
described to you last year, continues to develop and expand. 
Over the last 12 months, we have further increased our 
productive and collaborative relationship with traditional 
intelligence community professionals as well as those at the 
State, local and tribal areas--as well, operational and law 
enforcement individuals.
    All members of this community, as you pointed out in your 
comments, Chair Harman, are essential to the success of DHS 
intelligence, given the very decentralized and complex threat 
that we face today. You are right, with the passage of the 9/11 
Act, I do have the responsibility now to integrate and 
synchronize the activities of the intelligence offices of the 
operating components, as well as my own office.
    I do appreciate the elevation of this position to under 
secretary, something which I think will be vital to my 
successor. The President's fiscal year 2009 budget request 
provides funding that will allow my office to bolster and to 
sustain its core missions and further the overall integration.
    Let me just talk briefly on why your support is so 
essential. DHS Intelligence requirements, collection, 
dissemination capabilities grew significantly over the last 
year. For example, we increased the production of homeland 
intelligence reports from 2,000 to nearly 3,100 reports. These 
unevaluated reports provide intelligence and homeland security 
communities with a trove of information that, in the previous 
year, went unharvested.
    The fiscal year 2009 budget will allow me to hire 
additional personnel to support the acquisition report and 
reporting of unevaluated DHS component information of 
intelligence value to not only Federal, but State, local, 
tribal as well as the private sector.
    To accomplish your mandate to integrate intelligence, I am 
planning to create a Homeland Security Intelligence Program. 
This will be a DHS program similar in structure to the Director 
of National Intelligence's National Intelligence Program, or 
NIP. It will encompass the resource planning and budgeting 
activities of all members of DHS Intelligence.
    I have already established a Homeland Security Intelligence 
Council, providing a venue for all DHS Intelligence leaders to 
discuss issues and to make collective decisions consequent for 
DHS Intelligence. An integrated enterprise, both within DHS and 
including our external partners, can only be built upon a 
robust common training program which we now have under way. 
However, we will require additional funding in order to sustain 
this program in the coming year.
    In getting to your comments in particular, my office leads 
information-sharing efforts across DHS. In addition to our 
departmental responsibilities to implement the information-
sharing environment, we are leading the Interagency Threat 
Assessment Coordination Group, the ITAC-G, at the National 
Counterterrorism Center to ensure that non-Federal stakeholders 
are provided tailored and federally coordinated perspectives on 
time-sensitive threats that would have a potential impact upon 
the safety of the homeland. The ITAC-G has achieved operating 
capability, and I will be pleased in the question-and-answer 
period to respond fully to your questions and to your comments.
    In the past year, my office has, in fact, made significant 
progress at enhancing our support to State and local. The 
internal DHS report cited an article in The Wall Street Journal 
today that is something that I really want to comment on in 
more specific ways. This study, which is internal, which I just 
received last week, is good government; and I would like to 
correct the record. The internal report was simply a study that 
reflects the progress we have made.
    Here is the story of reality: I commissioned this report 
about 6 months ago precisely to get at the unvarnished, 
unfettered truth from the State and locals as to what was 
working and what was not working. The pilot program was 
designed to determine exactly what information and intelligence 
State and locals needed from DHS and the intelligence 
community. Finally, the pilot was designed to determine how DHS 
could assist State and locals with the vital process of 
exploiting open source information in support of their unique 
missions.
    But the process did not stop there. I instructed my office 
to put in place immediately measures to address shortcomings as 
they were uncovered. For example, we have improved the quality 
and timeliness of our responsiveness to the pilot Fusion Center 
request for information from weeks to days.
    Today, more than 85 percent of these were returned to State 
and local with answers within the deadline that they had set at 
the State level. Information needs at the pilot sites have been 
determined, and Fusion Center leaderships tell us that the 
information provided against these needs will significantly 
enhance their individual missions. These needs will now form 
the basis for information and intelligence analysis provided to 
these locations in the year ahead. The open source needs that 
Congressman Reichert spoke about of the pilot States have been 
determined and training has been provided to three of the 
States.
    The leadership of these fusion centers has described our 
assistance in this area as a grand slam home run. We will 
provide the same training and assistance in open source to the 
remaining fusion centers Nation-wide.
    In summary, our Fusion Center partners have repeatedly told 
us of improvements that they have found in our support and 
their confidence that we, together, are on the right track. The 
success of our endeavors I think is summed up in an excerpt 
from a 28 January 2008 letter sent to Secretary Chertoff by Los 
Angeles Chief of Police William Bratton following the 
production of a DHS-FBI joint regional bulletin addressing both 
the concerns over an upcoming anti-Islam Dutch film. In that 
letter, Chief Bratton wrote, ``I would like to personally thank 
DHS and, specifically, the Office of Intelligence and Analysis 
for taking our partnership to the next level, and look forward 
to reading future joint intelligence products that highlight 
our shared interests as we work to protect and secure 
America.''
    The President's fiscal year 2009 budget provides us the 
additional funds to handle a whole range of initiatives that 
have been given to us by the Secretary and by the DNI.
    I want to convey to you my sense of commitment and mission 
to ensure that we have in DHS the capability to address all 
threats to the homeland. This budget request will continue the 
process of integrating DHS Intelligence, as you mandate it, and 
will enhance our departmental capabilities to address the 
threats outlined in the President's National Strategy for 
Homeland Security. Our success depends on our ability to work 
together at all levels of government while not losing sight of 
the public's privacy and civil liberties that we must protect.
    The threats to our homeland from extremism and other 
threats are very serious. I need your strong support for the 
initiatives I have set forth. I look forward to your questions.
    [The statement of Mr. Allen follows:]
                 Prepared Statement of Charles E. Allen
                           February 14, 2008
                              introduction
    Chair Harman, Ranking Member Reichert, and Members of the 
subcommittee: Thank you for the opportunity to appear before you today 
to discuss the President's fiscal year 2009 budget for the DHS Office 
of Intelligence and Analysis.
    I testify before you today to speak to the progress that we have 
made in building a strong DHS Intelligence Enterprise as well as the 
challenges we face in the days ahead. As you know, the intelligence 
mission of my office flows directly from the mission of the Department 
itself. The mission of my office is clear--it is to identify and assess 
transnational and domestic threats to homeland security. We provide 
anticipatory, proactive, and actionable intelligence to support the 
Department; State, local, tribal, and private sector customers; and the 
intelligence community. The most critical and overarching threat to the 
homeland remains terrorism--transnational and domestic--and much of the 
IC's resources are devoted to this issue. I believe, however, that my 
office adds unique value by viewing terrorism through the prism of 
threats to the homeland. This holistic perspective allows us to make 
connections--if and where they exist--between terrorism and other 
illicit transnational criminal activities. Moreover, these other 
illicit activities often constitute serious threats to the homeland, 
and we must address these as well to support our departmental mission 
and to help secure the Nation.
    Last year, we developed our first annual integrated DHS 
Intelligence Enterprise research plan. This drove our flagship 
publication--the seminal Homeland Security Threat Assessment--of which 
I am very proud. This assessment represents the analytical judgments of 
DHS writ large and assesses the major threats to the homeland for which 
the U.S. Government must prepare and to which it must respond. The 
assessment looks out to 2010 and will be updated annually. Moreover, it 
provides us an important analytic framework by which we can identify 
and prioritize our gaps in knowledge and understanding of homeland 
threats.
    Further, this Enterprise research plan is part of an effort that 
includes development and publication of monthly Enterprise production 
plans; collaborative identification of priority collection gaps; 
coordinated efforts to harvest and extract information of intelligence 
value, and dissemination of unique DHS intelligence reporting to both 
our traditional and non-traditional customers; and Enterprise efforts 
to establish common tradecraft standards based on those delineated by 
the DNI. Collectively, these efforts demonstrate the significant 
capabilities a unified DHS Intelligence Enterprise can bring to bear 
against the threats facing our homeland.
                the office of intelligence and analysis
    The principal threats we face today are borderless, global, 
decentralized, and more dynamic and volatile than ever before. Within 
the DHS Intelligence Enterprise context, the Office of Intelligence and 
Analysis continues to build its core capabilities while concurrently 
assessing and proactively staging the capabilities needed to transform 
DHS intelligence--to bring our resources, systems, capabilities, and 
knowledge base into alignment with longstanding and mature intelligence 
community organizations. This two-pronged effort requires resolve and 
careful timing, but I am convinced we have made significant progress. 
We have created an intelligence program that is attuned to fluctuations 
in the homeland security environment and one that is working 
synergistically across the Department to counter the threats faced by 
our country.
Enhancing Analytic Focus, Quality, and Collaboration
    Since its inception, the Office of Intelligence and Analysis has 
focused on building its core capacities to deliver high quality 
intelligence. We worked through the challenges of standing up a new 
organization with a highly diverse and committed workforce. Within the 
organization, we have defined, established, and integrated the 
``Homeland Security intelligence'' mission, our unique approach to 
intelligence, and our knowledge and understanding of widely diverse 
traditional and non-traditional customer requirements.
    Last year I realigned the Office of Intelligence and Analysis' 
analytic resources into five elements to focus on the principal threats 
to the homeland. In my view, this realignment has improved dramatically 
the quality of our analysis by honing our focus and pinpointing where 
we can collaborate with and leverage both our own departmental skills, 
knowledge, and resources as well as those of the intelligence 
community. This approach has led to major analytic achievements in my 
office and across the DHS Intelligence Enterprise. We now regularly 
produce high quality Homeland Security intelligence assessments for the 
Secretary and other Department principals, directly support key 
Department efforts, such as the Secure Border Initiative (SBI) and the 
Visa Waiver Program, provide improved and more tailored analyses to 
State, local, tribal, and private sector, and better complement IC 
analysis with our own unique perspectives.
    As I noted, we now have five analytic thrusts to focus and energize 
our efforts. The first is threats to border security. We look at all 
borders--air, land, sea, and virtual--and examine a range of threats, 
such as narcotics trafficking, alien and human smuggling, money 
laundering, and other illicit transnational threats. These threats are 
interwoven and, importantly, can provide potential avenues for 
terrorists to enter the homeland. Our initial focus has been the 
Southwest border, per the secretary's priorities. During 2007, Office 
of Intelligence and Analysis intelligence assessments on worldwide 
travel vulnerabilities and the potential for extremists, terrorists, 
and other transnational criminals to exploit travel to the United 
States raised decisionmaker awareness of U.S. border security 
concerns--an area previously under-reported in intelligence community 
channels. We also continue to be the only intelligence community 
organization looking at U.S. borders holistically. A key example of 
this is our Southwest Border Threat Assessment, which underscores the 
range of issues threatening border security as well as their potential 
nexus to terrorism.
    My office's Intelligence Campaign Plan (ICP) is expanding DHS 
intelligence capabilities focused on border security by forward-
deploying intelligence officers to key border intelligence centers and 
augmenting border threat analysis, requirements, and classified 
communications infrastructure. This year, I deployed the first Homeland 
Intelligence Support Team (HIST) officer to El Paso, Texas, to provide 
direct intelligence support and information fusion to front-line 
operators and agents along the border. The HIST will be staffed with an 
integrated team of intelligence professionals responsible for 
identifying the intelligence needs of our border agencies, ensuring 
that information is coordinated with multiple Federal and local 
agencies, and facilitating the use of national intelligence resources 
to support them. The team also will ensure that critical Homeland 
Security information is appropriately shared with key mission partners 
external to DHS.
    In addition to our HIST in El Paso, as part of our expanding 
reports officer program, we are deploying reports officers at various 
cities along the southwest border to provide our operators with 
situational awareness and information support. The reports officers and 
the HIST will be coordinating their activities with the SBInet Program 
Office to fuse information, analysis, and technology to provide new 
strength to border security efforts. Our border agents are on the line 
every hour of every day, and the ICP, HIST, and reports officer 
deployments exist to support their needs.
    The office's reports officer program is key to supporting DHS 
operating elements, the DHS Intelligence Enterprise and the IC--and I 
have made significant investments in it. It is improving the 
Department's ability to move information with intelligence value that 
is gathered by DHS operating components throughout DHS and to other 
Federal agencies, to our non-Federal stakeholders, and to the 
intelligence community. I also have been expanding our reporting 
capabilities through reports officer training of headquarters, field 
intelligence, and selected operational personnel. Over the last 
calendar year, we have increased our Homeland Intelligence Report (HIR) 
production from 2,000 to nearly 3,100 HIRs. These unique, unevaluated 
reports provide the larger intelligence and homeland security 
communities with a trove of information that in previous years went 
unharvested and unevaluated.
    A second analytic element in my office is dedicated to assessing 
the threat of radicalization and extremism. Our top priority is 
radicalized Islam (Sunni and Shia groups); however, we also look at 
radicalized domestic groups; to include white supremacists, black 
separatists, and fringe environmentalists. We do not monitor known 
extremists and their activities; instead, we are interested in the 
radicalization process--why and how people are attracted to radical 
beliefs and cross the line into violence. We are using non-traditional 
intelligence and working closely with our State and local partners to 
leverage their insights and expertise to build a baseline of 
radicalization that leads to ideologically based violence in their 
localities. From this baseline, we plan to develop an integrated 
framework for tracking a radical or extremist group's risk for 
terrorism and assisting policymakers in developing strategies to deter 
and prevent it.
    As a complement to our efforts to look at threats inside the 
homeland, such as radicalization, we further are collaborating with our 
DHS Operating Components to focus on a third analytic element, 
potential threats from particular groups entering the United States--
groups that could be exploited by terrorists or other ``bad people'' to 
enter the homeland legally or to bring in CBRN or other materials. We 
further focus on travel-related issues of interest to the Department, 
such as visa categories and the Visa Waiver Program. Our key 
intelligence sources are the data that our Components gather in their 
daily operations. DHS Intelligence never before has pursued such an 
effort--one that is important to support the Department, our State and 
local partners, and the intelligence community. Last year, for example, 
Office of Intelligence and Analysis analysts assessed factors in global 
instability that are driving migration to the homeland--a phenomenon 
potentially exploitable by terrorists. Office of Intelligence and 
Analysis analysts also led a key effort last year in developing the 
U.S. Government's security screening program to vet prospective Iraqi 
refugees entering the United States.
    A fourth analytic element assesses threats to critical 
infrastructure, both private sector and State-owned and operated. We 
are enhancing our existing analytic efforts in partnership with the DHS 
Office of Infrastructure Protection in a center--the Homeland 
Infrastructure Threat and Risk Assessment Center, or HITRAC--to assess 
terrorist threats to and vulnerabilities in the 17 critical 
infrastructures identified in HSPD-7. We have completed a baseline 
assessment for every sector; last year, we completed, from a 
geographical (vice sector) perspective, 56 State and territory threat 
assessments--the first ever infrastructure intelligence threat 
assessments for each State and territory in the Union--to support State 
and local requirements on terrorist and other threats to U.S. critical 
infrastructure. The Office of Intelligence and Analysis engaged State 
and local partners in working groups to review and contribute to these 
assessments, as well as delivered tailored briefings to a wide range of 
State, local, and private sector customers to enhance their awareness 
and understanding of the threats.
    The last analytic element, but certainly not the least, supports a 
full range of customers on chemical, biological, radiological, and 
nuclear (CBRN) threats. We focus on the threat from improvised nuclear 
devices (IND) and radiological dispersal devices (RDD), or ``dirty 
bombs.'' We are also developing a major effort on bioterrorism threat 
analysis to support the Department's role to deter bioterrorism in the 
homeland. In the bioterrorism area, we are emphasizing the threat of 
infectious diseases--such as avian influenza--to support the 
Department's role in pandemic preparedness. Our concerns do not end 
with infectious human diseases, however, but include infectious animal 
diseases that could devastate our economy, and we are developing 
expertise in this area.
    Equally important is the fact that we have demonstrated the value 
of Homeland Security intelligence by contributing regularly--
individually and collaboratively--to the President's Daily Brief and 
the National Terrorism Bulletin. We also have developed key new product 
lines--such as the Border Security Monitor, CubaGram, Cyber Security 
Monitor, and Infrastructure Intelligence Notes, as well as a much-
demanded, rapid turnaround publication for State and local customers--
our Chief Intelligence Officer Notes. These product lines respond to 
the demand for breaking, emerging, and quickly evolving information 
updates on foreign and domestic threats and incidents with a potential 
impact on homeland security and principally respond to the concerns of 
our non-traditional customers--homeland security operators and 
policymakers as well as Federal, State, local, tribal, and private 
sector partners--for tailored, timely, and actionable intelligence.
Sharing Information and Quality Analysis Across the Homeland Security 
        Operating Environment
    Across this land, the ``seamless community of intelligence 
professionals,'' which I described to you last year, is expanding. Over 
the last year, DHS Intelligence continued to set the standard for 
integration by solidifying productive, collaborative relationships with 
traditional intelligence professionals; operational and law enforcement 
intelligence professionals; and State, local, tribal, and private 
sector intelligence professionals. As you know, all members of this 
community are equally essential to its success--the threat is too 
decentralized and complex to be destroyed without the full engagement 
of the community as a whole.
    Our success rests on our collective abilities to share information, 
collaboratively fuse this information into a clear threat picture, 
cooperate to fill the gaps in understanding the threat, and communicate 
the threat to the right stakeholder at the right place and time. As 
mandated by the Congress, my office leads information-sharing efforts 
across all of DHS. Working with the Program Manager--Information 
Sharing Environment (PM-ISE), I continue to create and implement the 
framework for the DHS information-sharing environment.
    Last year, the Department also improved substantially the 
foundation for its congressionally mandated Information Sharing 
Environment by establishing the information-sharing governance 
structure and improving information-sharing processes and products, 
such as the Data Asset Catalog. On behalf of the entire Department, the 
Office of Intelligence and Analysis is leading the development of the 
DHS Information Sharing Environment framework. A critical element of 
this framework is the information-sharing governance structure. We 
established the three-tiered structure to represent all DHS components 
and enable us to speak with ``one voice'' to our external partners. The 
Information Sharing Governance Board (ISGB), which I chair, is the 
decisionmaking body on all DHS information-sharing and collaboration 
issues. The DHS Information Sharing Coordinating Council (ISCC) is the 
implementing body for Department-wide information-sharing matters, and 
supports the ISGB. As part of this structure, we are building ``shared 
mission communities''--such as law enforcement--to provide a community-
based forum to address barriers to information sharing and resolve 
issues which resonate across a shared mission. This allows us to ensure 
that while we address policy and technology aspects of information 
sharing, we're also building a culture of collaboration.
    DHS also is addressing requests from the Intelligence Community for 
access to DHS information. The Office of Intelligence and Analysis has 
been working with DHS Components and our intelligence community 
partners to remove information-sharing barriers and develop a 
standardized approach to information sharing using Information Sharing 
and Access Agreements (ISAA), in order to facilitate external requests 
for DHS information. We are also creating Shared Mission Communities 
(SMC) to align component activities according to shared missions in an 
effort to increase efficiency and transparency across agencies; remove 
barriers to information sharing--both real and perceived; and develop a 
culture of information sharing and collaboration. The first SMC, the 
Law Enforcement Shared Mission Community (LE-SMC), has brought all of 
the DHS law enforcement components together to address information-
sharing opportunities and to build a coordinated approach to 
information sharing. Other SMCs, including critical infrastructure, 
border security, and transportation, will follow. Through this 
framework, we have increased our momentum in implementing the 
secretary's ``One DHS'' vision for improving information sharing--
contributing to a more integrated DHS and ensuring the timely and 
efficient access of information between mission partners.
    The Office of Intelligence and Analysis has continually expanded 
its outreach, both within the Department and outside the Department to 
support State and local partners. As a key cornerstone of our outreach 
efforts, my office has deployed 22 representatives, and will be 
deploying more to reach 26 by the end of fiscal year 2008. As the Chief 
Intelligence Officer in DHS, I have been uniquely challenged in 
developing a program that not only is consistent with the expectations 
of the 22 different areas within the Department of Homeland Security, 
but also meeting the needs of our Federal partners, and most 
importantly meet the needs of the State and local customers for which 
the program was developed.
    The partnerships the Office of Intelligence and Analysis has 
nurtured in the State and Local Fusion Center Program Management Office 
are demonstrably successful when one considers the enormity of the 
task. The first area the Office of Intelligence and Analysis needed to 
bring partners together in the program's creation were internal, 
meaning the divisions within the Office of Intelligence and Analysis, 
whose resources would be stretched to support such a program. The 
Office of Intelligence and Analysis has developed a group of leaders 
from within each major area of the Office and worked with them to 
create a program that would work across any parochial mission areas and 
not interfere with existing work already being conducted with our State 
and local partners. The success of these endeavors is best summed up in 
an excerpt from a letter sent to Secretary Chertoff by the Los Angeles 
Chief of Police William Bratton. Chief Bratton wrote, ``I would like to 
personally thank DHS, and specifically, I&A [the Office of Intelligence 
and Analysis], for taking our partnership to the next level and look 
forward to reading future joint intelligence products that highlight 
our shared interests as we work to protect and secure America.'' 
Sheriff Bob Alford of Johnson County, Texas, echoed this spirit when he 
stated, ``We very much appreciate the information that is passed along 
to our agency. It has been very beneficial in helping to stop rumors 
going around the county, keeps us informed as to any threat to our 
county and is the first time in my career that we have received regular 
and frequent information from the Federal Government.''
    Clearly, our information gathering, reporting, and analytic efforts 
would be undercut dramatically without a functional information 
technology and knowledge management backbone and structure. Recognizing 
this, last year we created the Homeland Secure Information Network 
(HSIN)--Intelligence, a secure but unclassified portal, to distribute 
unclassified DHS and State and local intelligence to Federal and non-
Federal analysts and customers. We further developed a virtual analytic 
community of interest with our State and local partners--the Homeland 
Security State and Local Intelligence Community (HS SLIC)--on the HSIN-
Intelligence portal and last year sponsored analytic conferences on 
radicalization, weapons of mass destruction (WMD) threat detection and 
prevention, and border security. Each of these three collaboration 
activities brought together--and HS SLIC continues to bring together--
over 100 analysts from across the country. Such efforts result in an 
enhanced shared analytical understanding between DHS and other Federal, 
State, local, and tribal agencies; a greater ability to assess threats 
via multi-level government participation, meshing domestic on-the-
ground knowledge with overseas intelligence; and increased intelligence 
sharing with our Homeland Security partners such as Governors, homeland 
security advisors, private sector owners and operators, and State, 
city, and county officials.
    While the Office of Intelligence and Analysis continues to expand 
our reach we continue to realize the need to bring the customers in 
during the program's growth to ensure their voice was heard as the 
program matures. Per the recommendation of Congress we have established 
a Law Enforcement Fellowship program that will soon be receiving its 
third candidate this year. The Office of Intelligence and Analysis has 
also worked with many Federal partners and advocacy groups 
simultaneously to expand the Fusion Center Guidelines. This requires 
balancing the interest of many parties and ensuring that work is not 
allowed to be stalled by the parochial interest of any one participant. 
I believe this success was recently demonstrated when both OMB and the 
House and Senate appropriators doubled the program's baseline in only 
its second year of existence.
    Further, we are streamlining and merging disparate classified 
networks into a single, integrated network--the Homeland Secure Data 
Network (HSDN)--to help increase the sharing of intelligence and other 
information securely to fulfill its homeland defense mission. Homeland 
security leaders envision that HSDN will become the major secure 
information thoroughfare joining together intelligence agencies, law 
enforcement, disaster management, and front-line disaster response 
organizations in the common goal of protecting our Nation and its 
citizens. We are actively deploying HSDN internally and to our State 
and Local partners. We have a program to ensure relevant information is 
made available on these networks.
    As the under secretary for the Office of Intelligence and Analysis 
I work on a daily basis to influence the State and Local Fusion Center 
Program Management Office's direction on a national level. The Office 
of Intelligence and Analysis conducts its work with our partners 
mindful of the very strong concerns of our citizens over the protection 
of civil rights, civil liberties and privacy at all levels of our 
relationship. As this committee is aware, the Office of Intelligence 
and Analysis continues to be a principal supporter of the Fusion Center 
National Conference at which nearly 500 State and local intelligence 
leaders will be present along with many of our Federal partners. In 
total nearly 800 people, including you Madam Chair, will be in 
attendance. This is nearly a 25 percent increase in participation over 
last year. In very real terms the Office of Intelligence and Analysis 
faces the task of maintaining these very important relationships on a 
daily basis and actively influences policy concerning this program at 
senior levels of Government. I remain committed to the program and our 
State and local customers as we move forward in this mutually 
beneficial relationship.
Interagency Threat Assessment Coordination Group (ITAC-G)
    A major emphasis of the Office of Intelligence and Analysis has 
been the establishment of the Interagency Threat Assessment 
Coordination Group (ITAC-G), which has been stood up under the 
management of the National Counterterrorism Center (NCTC) to help us 
meet the information needs of our State, local, and tribal partners. I 
have provided two senior officers from the Office of Intelligence and 
Analysis, along with two officers provided by the FBI, to lead the 
stand-up of this organization. I am extremely pleased to report that 
the ITAC-G achieved Initial Operating Capability (IOC) on 30 January 
2008 and that current staffing requirements have been met. In total, 
four Federal and four State personnel, as well as contractor officers, 
are working in dedicated spaces with essential systems connectivity in 
NCTC.
    The ITAC-G has already begun providing valuable input to 
intelligence products disseminated to State and local organizations, 
and its personnel regularly attend NCTC meetings and are engaged in 
NCTC production processes and activities critical to serving non-
Federal customers. Since stand-up operations began on 23 October 2007 
under DHS day-to-day leadership, the ITAC-G has reviewed more than 
25,000 finished intelligence products. From that review, the ITAC-G 
identified products that meet State and local needs, and has already 
disseminated many of them to State and local officials. Since 23 
October, the ITAC-G also has reviewed 1,576 separate reports on 
worldwide threats to U.S. interests, identifying 69 of these as 
possible threats to the homeland. Further review by the ITAC-G revealed 
five reports of questionable credibility, two of which required better 
characterization of the threat or source. As a direct result of the 
ITAC-G's efforts, DHS and the FBI refined our characterization of the 
threat and released joint reports on the two cases noted above 
requiring further threat detail.
    We have also established the Advisory Council to the ITAC-G, which 
I head on behalf of the secretary that will meet for the second time 
tomorrow. I have set an ambitious agenda, centering on our discussion 
of a number of priority challenges that we all expected the fledgling 
group would encounter--from recruitment of State, local, and tribal 
personnel; to establishing a formal mechanism and feedback process for 
State, local, and tribal customers, who will be key to strengthening 
the ITAC-G's value and evaluating its success. I am confident that DHS, 
FBI, and NCTC in collaboration with the ITAC-G Advisory Council and 
ITAC-G personnel will work closely together--not only to ensure that 
the ITAC-G meets the letter and spirit of statutory obligations vis-a-
vis State, local, and tribal needs, but also to synchronize and 
harmonize intelligence community support to our State, local, and 
tribal partners.
     the role of the under secretary in integrating the enterprise
    I am grateful for your support to my office in the Implementing 
Recommendations of the 9/11 Commission Act of 2007. The ``9/11 Act'' 
elevated my position to an under secretary, effectively codifying the 
authorities previously conferred on me by the secretary. I now have an 
even greater responsibility--under the law--for integrating the 
activities of the Component intelligence organizations of the 
Department. My goal is to ensure that we are efficient and effective in 
our approach toward inculcating a common intelligence culture.
    Passage of the 9/11 Act, and within it, the creation of the under 
secretary for Intelligence and Analysis, displayed farsightedness on 
the part of this subcommittee. The 9/11 Act underscored the need for a 
robust and integrated intelligence and information-sharing program 
within DHS. Using existing Intelligence Enterprise governance and 
oversight mechanisms, I have been laboring to evaluate and refine the 
direction, efforts and resources necessary to implement its objectives. 
Appropriate resourcing is fundamental to our success, and DHS will be 
assiduous in ensuring that we are extraordinarily efficient and 
effective in the use of our appropriated resources. I encourage the 
subcommittee to recommend that the DHS intelligence program be 
adequately resourced to fulfill the laudable objectives of the 9/11 
Act.
    As the chief intelligence officer of the Department, I created in 
2006 the Homeland Security Intelligence Council (HSIC), providing a 
venue for all DHS Intelligence Enterprise leaders to discuss issues and 
collectively make decisions of consequence to the entire Enterprise. 
Under my authorities, I conduct annual DHS intelligence program reviews 
and work with the DHS Office of Policy and the chief financial officer 
to issue intelligence guidance as part of our resource planning and 
programming cycle. I am now required by law to present a consolidated 
DHS intelligence budget to the secretary. The program reviews provide 
the analysis and insights necessary for me to identify comprehensively 
for the secretary the requirements and activities of the DHS 
Intelligence Enterprise. These reviews also show me how to streamline 
and structure departmental activities to leverage efficiencies of scale 
and eliminate unnecessary programmatic duplication. This year, I hope 
to expand and diversify beyond annual program reviews to include 
periodic, focused, issue-based evaluations of smaller component 
intelligence activities throughout the entire year.
    I have been guiding our program and budget efforts toward the 
creation of a Homeland Security Intelligence Program (HSIP) to manage 
the Department's non-national intelligence programs that contribute to 
homeland security intelligence collection and analysis. The HSIP will 
encompass the resource planning, programming, and budgeting activities 
of all members of the DHS Intelligence Enterprise. I have been laying 
the groundwork to implement the HSIP for the last 2 years through the 
collaborative leadership of the HSIC, the Homeland Security 
Intelligence Integration Board (HIIB), the Intelligence Career Force 
Management Board (ICFMB), and the Intelligence Systems Board (ISB). I 
believe DHS is now well-positioned to establish a standardized basis 
for how the DHS Intelligence Enterprise conducts its activities, and 
fully bring into practice the goals envisioned in the 9/11 Act. The 
HSIP will allow the Department, through the Chief Intelligence Officer, 
to more effectively and efficiently provide oversight and direction to 
all DHS intelligence resource planning, programming, and budgeting in a 
concerted fashion to better ensure that all elements of DHS are 
properly resourced, equipped, and collaborating to maximize fusion and 
analysis of homeland security intelligence data collected. Over the 
next year, I will continue to establish policies, procedures, 
standards, and other guidelines to implement the HSIP in conjunction 
with the Chief Financial Officer, the Office of Policy, and the HSIC.
    Furthermore, as a member of the Intelligence Community and in my 
role as the program manager for the DHS National Intelligence Program, 
I participate in the DNI's Executive Committee. As an active member of 
this committee, I ensure that the intelligence needs and capabilities 
of the DHS Intelligence Enterprise, State and local officials, and 
private sector owners and operators are a tightly woven, integral part 
of the fabric of intelligence community planning and requirements.
    I continue my efforts to recruit and develop an outstanding 
workforce and retain high performers by investing in a strong training, 
education, and professional development program. Without appropriate 
training and education, the DHS Intelligence Enterprise will operate 
neither as a culture nor as a unified workforce. Thus, I have made it a 
cornerstone of my efforts with the HSIC to develop and institute 
training programs that serve the entire Enterprise as well as our State 
and local partners. The first two iterations of the 6-week Basic 
Intelligence Threat Analysis Course were conducted last year, and the 
third iteration is under way as I sit here before you. This key 
milestone of the DHS Intelligence Enterprise Education, Training, and 
Professional Development Strategy provides basic level intelligence 
training to new intelligence analysts and to State and local personnel 
who are customers of DHS intelligence. This year, I will begin 
development of a complementary Mid-level Intelligence Threat Analysis 
Course. We have made significant progress in establishing a strong 
collection requirements and management program, building an initial 
capacity in open source intelligence, streamlining the reporting of 
information of intelligence value by our reports officers, and 
improving our exploitation of information gathered through the 
Department's conduct of its law enforcement authorities.
           the president's fiscal year 2009 budget submission
    Now I would like to address how the President's fiscal year 2009 
budget submission supports the Office of Intelligence and Analysis 
efforts. First, I am pleased to inform you that the 2009 budget 
submission includes funding for seven critical areas that will allow 
the Office of Intelligence and Analysis to bolster and sustain its core 
missions and further integrate the DHS Intelligence Enterprise: State 
and Local Fusion Center deployments; intelligence analysis; 
intelligence requirements, collection, and dissemination; integration 
planning; information sharing; outreach; and mission support. In each 
of these areas, as I have sought to demonstrate throughout this 
testimony, we have made much progress. Still, we have much work ahead 
to accomplish.
    The President continues his commitment to a national fusion center 
network that is already demonstrating results by providing the Office 
of Intelligence and Analysis with additional funds to expand its 
representation at State and Local Fusion Centers (SLFC) across the 
country. The fiscal year 2009 budget will enable the Office of 
Intelligence and Analysis to deploy additional intelligence analysts 
and HSDN connectivity to SLFCs, provide security awareness training to 
SLFC personnel accessing sensitive Federal information, more robustly 
conduct privacy and civil liberties awareness and protection training, 
and continue the Office of Intelligence and Analysis' efforts to 
provide intelligence support to the SLFCs from headquarters. I am 
encouraged by Congress' continuing support to the State and Local 
Fusion Center Program Management Office and look forward to working 
with them to fully fund the program in fiscal year 2009 in order to 
meet both the President's goals and objectives and the requirements of 
the 9/11 Act. I must also be mindful that this direct customer support 
requires a robust analytical and support engine behind it to remain 
successful. I am eager to work with the legislative branch to ensure 
all levels of State and local support are funded at the President's 
request level to ensure the continued success of the national network 
of fusion centers.
    The fiscal year 2009 budget provides additional funds to hire more 
WMD analysts within the Office of Intelligence and Analysis. These 
analysts will focus on WMD-related threats to the United States and 
provide the Office of Intelligence and Analysis with greater access to 
a critical source of WMD threat information, Project ARGUS, and the 
robust streams of human and animal biosurveillance data available from 
around the globe.
    These analysts also will contribute to a core Office of 
Intelligence and Analysis mission--integration of the Intelligence 
Enterprise--by working closely with analysts from other DHS Component 
intelligence organizations to develop timely, tailored, and actionable, 
homeland-focused public health and medical intelligence products for 
our Federal, State, local, tribal, and private sector partners. They 
will further help to institutionalize my office's relationships with 
other departmental partner organizations, such as the Domestic Nuclear 
Detection Office, Science and Technology Directorate, National 
Preparedness and Protection Directorate, and the Office of Health 
Affairs.
    In addition, these analysts will support the expansion of the 
Office of Intelligence and Analysis' ability to identify foreign 
persons posing a WMD threat who are coming to the United States or are 
already here. This expansion effort will facilitate the full analysis 
and screening of such persons in order to advise the law enforcement 
community and the intelligence community on potential WMD-related 
threats to the homeland.
    The fiscal year 2009 budget for intelligence requirements, 
collection, and dissemination will allow the Office of Intelligence and 
Analysis to hire additional personnel to support the acquisition and 
reporting of all unevaluated component information of potential 
intelligence value to Federal, State, local, tribal, and private sector 
entities that have responsibilities relating to the security of the 
homeland. With these additional personnel, DHS will be able to increase 
its ability to acquire all threats/all hazards information available 
through the State and Local Fusion Centers (SLFC). The reports officers 
will be trained on how to handle law enforcement information to ensure 
it is appropriately protected, and that departmental records and 
databases are reviewed within statutory and regulatory prescriptions. 
This activity supports the Office of Intelligence and Analysis' core 
mission of sharing relevant information across the DHS Intelligence 
Enterprise and the intelligence community.
    The President's budget will also provide increases for the Office 
of Intelligence and Analysis' open source (OSINT) research and analytic 
capabilities, recognizing the intelligence value of information that is 
freely found in the public domain. This increased capability will allow 
the Office of Intelligence and Analysis to conduct OSINT research, 
acquisition, collection management, content management, and knowledge 
management to increase the quantity of relevant OSINT provided to our 
customers. Exploiting this type of information complements the broader 
intelligence community's open source investments and allows DHS to 
better serve Federal, State, and local customers.
    These new initiatives--along with the maturation of DHS' Integrated 
Collections Strategy and fused approach to intelligence, surveillance, 
and reconnaissance--will improve the Department's responsiveness to the 
needs of our internal and external partners.
    Overall, the President's fiscal year 2009 budget request sustains 
Office of Intelligence and Analysis investments in information 
sharing--the lynchpin of Enterprise Integration and Homeland Security 
outreach. The Office of Intelligence and Analysis will further develop 
the enterprise architecture and expand our connectivity with our 
Federal and non-Federal partners. One of the cornerstones of these 
endeavors is the expansion of a collaborative information environment 
at the SECRET level, which will foster classified communication among 
the Department's components and with our State and local partners. This 
capability, coupled with the Department providing access to both 
intelligence reporting and analytical products at the unclassified and 
For Official Use/Sensitive But Unclassified levels, will enhance our 
information-sharing relationships with State, local, tribal, and 
private sector partners.
    Through an Integrated Product Team, we are fully engaged with the 
DHS Science and Technology (S&T) Directorate and other departmental 
components to identify, develop, and acquire technology to help us 
improve information sharing. For example, S&T resources are targeted to 
develop technology that will improve data sharing and data fusion for 
information sharing.
    As chief intelligence officer, and now as under secretary, I have 
initiated many programs within the Office of Intelligence and Analysis 
critical to the security of our Nation. Activities such as the National 
Immigration Information Sharing Operation, the National Applications 
Office, media exploitation, reports officers, and State and Local 
Fusion Center representatives are either providing or poised to provide 
broad access to unique DHS information. We must invest in the support 
network that allows all of these programs to function effectively. As 
an under secretary reporting directly to the secretary, I must capably 
manage taskings, people, and funding; ensure laws and Federal 
regulations are strictly adhered to; and create programs and policies 
to integrate the DHS Intelligence Enterprise. As intelligence 
activities within DHS expand, the Office of Intelligence and Analysis 
must realize a commensurate increase in staff capabilities to provide 
adequate organizational support and oversight. The fiscal year 2009 
budget will allow me to hire qualified personnel to provide mission 
support in areas such as budget, human capital, and administration.
    Further, as the complexity of the Office of Intelligence and 
Analysis' operations has grown so has the need for statutory and 
regulatory guidance. To this end, the fiscal year 2009 budget will also 
allow me to hire needed attorneys and program managers to ensure the 
Office of Intelligence and Analysis strictly observes all U.S. laws, 
regulations, and policies that protect privacy, civil rights, and civil 
liberties. Additional personnel will also be used to more effectively 
implement and monitor Office of Intelligence and Analysis operations, 
programs, resources, and performance.
                               conclusion
    Members of the subcommittee, I want to convey to you my personal 
sense of urgency and commitment to the mission we all share--ensuring 
that DHS has the intelligence capability to address threats to the 
homeland. The United States and its allies are engaged in a global 
struggle against a broad range of transnational threats. DHS 
Intelligence is a modestly sized program, but the budget before you 
reflects this urgency. The Office of Intelligence and Analysis budget 
request will enhance departmental intelligence capabilities to address 
the ``complex and dynamic threats'' outlined in the President's 
National Strategy for Homeland Security and continue the process of 
integrating the DHS Intelligence Enterprise, as mandated in the 9/11 
Act.
    As always, I welcome the opportunity to appear before this 
subcommittee to share our key accomplishments and review the major 
funding priorities in fiscal year 2009. These priority areas are vital 
to advancing DHS Intelligence to where it should be. Overall, the 
realization of a national homeland security intelligence community 
rests on addressing these areas. The Office's challenge in fiscal year 
2009 is to aggressively pursue DHS Intelligence and Analysis' evolution 
and to maximize budgetary resources to build on our capabilities and 
sustain an inclusive partnership of equals to meet our critical mission 
of protecting the homeland.
    None of us--whether at the Federal, State, local level, or in the 
intelligence community--can unilaterally predict the threat, warn our 
stakeholders, and take action to mitigate the risks. Our success 
depends on our ability to work together, while never losing sight of 
the privacy and civil liberties of the public that we are sworn to 
protect. We are constantly besieged by enemies, foreign and domestic, 
which require perpetual awareness to mitigate the myriad threats. Our 
success in protecting our Nation's security depends on how relentlessly 
we collaborate.
    Thank you and I look forward to your questions.

    Ms. Harman. I thank the witness.
    Now it is time for questioning, and I yield myself 5 
minutes for questions.
    Mr. Allen, I listened carefully to your summary, and I do 
appreciate--I think we all appreciate that your office is 
making progress. But what I continue to hear is that your 
office is making progress inside of DHS, but I don't really 
hear that your office is being a good partner to other agencies 
in helping the NCTC process to evolve.
    Let me remind us all that initially, when the Homeland 
Security Department bill was passed, the intelligence function 
and the intelligence fusion function were all within DHS. 
President Bush then decided sometime later to set up a separate 
office called the Terrorist Threat Information Center, TTIC, 
outside of DHS, free floating but more or less attached to the 
CIA. I am sure we all remember this. That office has evolved 
into the NCTC, which was given its status when we did the 
intelligence reform legislation. The NCTC is, again, free-
floating, and it is a fusion center for all of the Federal 
agencies that work on intelligence.
    This committee expects you to be a full partner with the 
NCTC, and we set up this new--what you call the ITAC-G, and I 
just call the ITACG--system to incorporate State, local and 
tribal people in the process of developing Federal intelligence 
products for State, local and tribal consumption. The reason we 
did this is because we felt that their perspective would be 
enormously helpful in designing products for them to use.
    We still don't feel--in the information I have, we still 
don't feel that you are fully cooperating with this group. I am 
just curious, for example, have you met with the State, local 
and tribal detailees from Phoenix, Washington, DC, Boston and 
the New Jersey State Police who are now here as part of the 
ITACG? Have you personally met with them?
    Mr. Allen. I have personally met with all of them, and we 
have supported getting them--two of them, getting them on board 
and funding them through a process called IPA, independent--
independent governmental authority in order to bring them on 
board and bring them on board effectively.
    We have worked very closely with NCTC on the whole process. 
We have worked closely with the FBI. We have--I have two of my 
most senior officers leading and helping work with the FBI and 
State and local officials. We have worked very hard to get them 
onboard, to get them to meet all the security requirements of 
NCTC. I work closely with Mike Leiter, who is the acting 
director of NCTC, and he and I agree that it is working well.
    There is a report that will be coming, I believe from the 
information-sharing environment program manager, that will lay 
out the first quarterly report on the ITAC-G progress. I am 
very, very pleased with what we are doing. I can cite 
statistics, but I don't really have time. They are putting in a 
lot of data into the State and local fusion centers and State 
governments.
    Ms. Harman. Well, let me ask you to define what you think 
is the job of these participants in the ITACG and I am also 
curious to know whether they are involved in producing 
documents as part of their jobs that are stamped or identified 
as documents produced by the ITACG.
    Mr. Allen. Their job, as laid out in their charter, is not 
to do original analysis and research, but to ensure that all 
Federal information, whether it is at NCTC or in DHS or the FBI 
that can be sent down to the State and local level that is of 
threat interest to them, has done so. They have done an 
extraordinary, extraordinary job.
    I mean, the ITAC-G has reviewed over 34,000 intelligence 
products that are out at NCTC. Twenty-five of those products 
were identified, and a number of those products, 16 of those 
25, were downgraded and are being sent out to the State and 
local government because they involve more detailed assessment 
on terrorism tactics, techniques and procedures.
    So there is a significant amount of work that is under way. 
These people are fully engaged. My support of them, everything, 
every joint advisory that we and the FBI have produced--Art 
Cummings and I--is reviewed and coordinated with the ITAC-G, 
which goes out as threat--joint threat advisories with the 
Bureau.
    Ms. Harman. Again, my understanding is that the joint 
explanatory statement says that they are not just to review 
products; they are empowered to create products. I also 
understand that most of their products to date have been 
disseminated through NCTC Online, which is a Secret-level 
network which most police and sheriffs departments don't have 
access to.
    So, Mr. Allen, my time has expired, but I suggest to you 
that there is a lot more to do in terms of cooperating with 
this effort. This committee sees its mission as representing 
the people in the field and helping them to get better 
information from the Federal Government, not the other way 
around. In talking to those people, I don't have--if we have a 
second round of questions, I will give you more time to 
respond.
    Mr. Allen. Thank you. I would like to do that.
    Ms. Harman. In talking to those people, the impression I 
get--and this is from numerous field hearings and visits that 
we have had. The impression I get is that they are frustrated, 
and they don't see full participation by your office in the 
ITACG group.
    Let me give you a chance to say something if you need to, 
but then I am going to yield to the Ranking Member.
    Mr. Allen. Let me just say that I chair the ITAC-G Advisory 
Council. The ITAC-G Advisory Council is made up of 50 percent 
Federal, 50 percent State, local and tribal. We have met twice. 
We are supposed to meet quarterly. I have directed that we will 
meet monthly either by teleconference or in person.
    We have had two separate sessions. We have flown people in 
from around the country.
    We are going to broaden the State and local representation, 
and that is one that I have advocated, to put a tribal 
representative within the ITAC-G and, probably, someone 
representing the fire administration, all the fire departments 
of this country.
    So we are moving up I think quite swiftly.
    Ms. Harman. Thank you.
    The Chair now yields 5 minutes to the Ranking Member for 
questions.
    Mr. Reichert. Thank you, Madam Chair. Again, I want to 
focus on the State and local partnerships through the fusion 
centers.
    I think I have seen some improvement as I have talked to 
police chiefs and some of my old sheriff friends across the 
country, and especially in the Northwest area. But there are 
still some concerns.
    How close contact or how closely do you work with the 
Office of Grants and Training?
    Mr. Allen. That is an area where we do the threat analysis. 
We look at threats as they are raised across this country at 
the State level and at the city level.
    We have a very, very good way of assessing that. We do the 
threat. However, the Infrastructure Protection Directorate 
then, along with FEMA, looks at vulnerabilities; and between 
threat and vulnerabilities, you make a policy decision on risk.
    We don't make the decisions relating to grants. We provide 
the threat information keeping us out of policy decision-
making, keeping us as professional intelligence officers.
    Mr. Reichert. Yes. But you definitely understand the 
connection between the financial support for local--State and 
local and their ability to participate in fusion centers. I 
hope that in your position you have--you voiced an opinion 
there on this, the need for that money.
    Mr. Allen. Well, my view is that the Fusion Center is a 
great new development in this country. It is going to make this 
country safer not only from terrorism, but a host of other 
threats; and our ability to share information and to embed 
officers out there is going to make, I think, a great deal of 
difference along--working with our partners, the FBI, I think 
is going to make a great deal of difference in the coming years 
in the security of our country.
    Mr. Reichert. What are the top priorities of your office? 
Are they the ones mentioned in your statement, the realignment, 
the five points of realignment in your----
    Mr. Allen. Yes. My top priorities really involve building a 
cadre of professional officers; we did not have that when I 
arrived. We are hiring and recruiting from the university 
system, developing and mentoring and nurturing people who have 
analytic skills, to be able to send highly qualified officers 
out to the field to help us with information sharing.
    Second, to build our information management systems that we 
did not have when I came there.
    Third, of course, is to train, to develop a robust training 
program.
    I would say, fourth, we need to build a more robust open 
source effort, and we are getting a lot of assistance from the 
Director of National Intelligence and David Shedd in that 
endeavor.
    Mr. Reichert. So in the development of the fusion centers, 
just to kind of centerpiece this effort in bringing locals and 
Federal and State agencies together, will the budget allow you 
to perform this task to bring State and locals together?
    Mr. Allen. Well, we obviously are going to be straining it 
this year to reach our stated goal of having 35 embedded 
officers out there. We do not have quite the funds to do that 
now. We will probably have to do some reprogramming in order to 
do that or to meet that goal.
    Fiscal year 2009, if fully funded, will meet some of our 
goals to do that.
    Mr. Reichert. Are the 35 on top of the 19 that you talked 
about last year you added?
    Mr. Allen. I am sorry. I didn't hear the question.
    Mr. Reichert. Is that an additional 35?
    Mr. Allen. No. That is 35 in total last year. We obviously 
will have to grow beyond that.
    Some States have several fusion centers. Some States have 
very large populations. Our officers are really overtaxed 
trying to cover the States. Some of my officers work many 
additional hours each week, and out in the State, in order to 
cover--in order to meet the needs of the homeland security 
advisors and the heads of the fusion center.
    Mr. Reichert. I want to ask this last question, basically 
for your information, too, that this is what I am hearing from 
sheriffs, very concerned. Again, I know that it is not your 
primary area of authority, but certainly you have a connection 
here.
    You repeatedly discussed the importance of State and local 
fusion centers to the Department's intelligence mission. The 
President's strategy for information sharing also knows the 
importance of fusion centers and discussed the need for 
sustainment of funding for these centers through the Federal 
Government. But we are told that there are some cuts that are 
coming to specific programs.
    What Federal resources are we going to use to fund these 
centers in the future?
    Mr. Allen. We obviously are going to be facing, I think, a 
crossroads on this, the level of Federal funding and how much 
it will be sustained over time and what will be State and local 
government responsibilities.
    I have this issue raised with me everywhere I go, whether 
it is in Florida or California or Wisconsin. You name it, we 
have some serious issues about sustained funding of fusion 
centers. Because as good as they are and as great at innovation 
as fusion centers, in my view they need to be sustained in 
order to help keep our country safe.
    Mr. Reichert. I appreciate your answers.
    I yield. Thank you.
    Ms. Harman. The Chair now yields 5 minutes to Mr. Carney of 
Pennsylvania.
    Mr. Carney. Thank you, Madam Chair.
    Welcome, Mr. Allen. Thank you for your testimony.
    I guess I have some questions, you know, besides things 
like the classification of personnel issues, what other sources 
of impediments do you see toward the standing up of the--sort 
of system of fusion centers that you would like, and what other 
things are slowing it down in places?
    Mr. Allen. Well, I think there is a range of issues that 
does affect standing up the fusion centers. Some fusion centers 
do not have all the security requirements because we want to 
feed those fusion centers with Secret-level information. They 
clearly need to be certified and improved to handle secure 
intelligence. That is one issue.
    I think one of the things where--and I will acknowledge 
it--we have not put our homeland data network out there, or 
homeland security data network, Secret level, at the speed that 
we need to at the fusion centers. We are trying to move it as 
fast as we can, but we have a shortage of resources in doing 
that. So there are some impediments.
    At the same time, at the homeland security intelligence 
area, at the official use level, we are doing a lot of issues. 
We have 41 States which we meet with on a weekly basis by 
secure--by teleconference, secure teleconference, where we talk 
about threat information, new terrorism techniques, tactics and 
procedures. This is a whole new innovation. We call it the 
SLICK system.
    We are having a major fusion center conference out in San 
Francisco. This is one we are doing jointly with the DNI and 
with the Department of Justice. I think this will be testimony 
to how far we have come in the last 2 years.
    Mr. Carney. Well, that is good to hear that we are moving 
forward.
    How many fusion centers do we need in the Nation?
    Mr. Allen. We can't dictate that. I think that comes from 
the States, the States, what will be required. California has 
four. Some others have more than one. Your State, Pennsylvania, 
they clearly would put one in Harrisburg and they are thinking 
of putting another one up in Philadelphia, which is a major 
UASIs center city, as well as seaport.
    So I think probably Pennsylvania will probably want to have 
a couple. We will want, as soon as you--most of these are not 
yet mature. But as soon as they are mature, it will go to the 
top of the list, and Pennsylvania will have one of my officers 
there helping.
    Mr. Carney. Well, awfully glad to hear that, obviously.
    When we have less populous States, does every State need a 
fusion center, a couple of fusion centers? Do we need a system, 
do we need regional ones? How do you envision it?
    Mr. Allen. I think we will find that some of the States 
will go together in regional networks. We already have fusion 
centers engaging in regional networks today in the Southeast, 
out in the far Southwest, in the Northeast. We see a 
cooperation, I think, in some of the less populous States. We 
will have fusion centers maybe serving two or three States and 
I think that makes good sense.
    Mr. Carney. Okay. Back to the issue of the classification 
thing. Is the State responsible for building the SCIFs that can 
hold the classified information or is it DHS?
    Mr. Allen. I think the States have to help build the SCIFs. 
We certify them. I have a senior officer behind me here who 
helps work the certification of secure networks. We help 
certify the security of--DHS Security does, but the States have 
a responsibility to sort of meet Federal requirements for the 
handling of classified Federal information.
    Mr. Carney. Okay. No questions at this time.
    Thank you, Madam Chair.
    Ms. Harman. Thank you.
    The Chair now yields 5 minutes to Mr. Perlmutter for 
questions.
    Mr. Perlmutter. Thank you, Madam Chair.
    Mr. Secretary, I would like to start with--you know, as we 
have talked about this, and I will move to the fusion centers 
in a second. But we need to have strong, you know, security 
apparatus in place; and one of the places where there have been 
developments we have not quite finished is in this National 
Applications Office. I just have questions to you as to--you 
know, we have this space kind of intelligence system in place. 
It is moved over from the Geologic Survey or whatever 
department it was in.
    One of the things we have been talking about is putting in 
the protocols to make sure we can use that in a way that 
benefits our country and, you know, aids in our security 
without, you know, stepping all over certain rights of privacy. 
Where are we on the protocols?
    Mr. Allen. We are in the final process of having the 
charter signed by the principals involved--the Secretary of 
Defense, the Attorney General, the Director of National 
Intelligence and the Secretary of Interior. We have--we believe 
we have an agreed-upon charter that will be very clear to you 
on permissible and impermissible uses of the National 
Applications Office.
    We really do believe that we have met your requirements and 
that of Chairman Thompson of your House Homeland Security 
Committee. We are very confident that we have privacy and civil 
rights and civil liberties fully protected. We will have a 
full-time attorney working within the National Applications 
Office. In addition to layered review that will occur in the 
National Geospatial Agency, because they will not accept a 
request for National Technical Means imagery without doing 
their own internal review.
    So I think what we have is something that you will be very 
proud of and very pleased with.
    Mr. Perlmutter. Good. Let me switch to open source issues.
    I would like to know what Homeland Security is doing today 
to provide open source information to--or to assist local law 
enforcement agencies with all this information that is out 
there by the bucketful or the truckloads or whatever.
    Is there some kind of procedure in place to assist local 
law enforcement with this information?
    Mr. Allen. Well, that is exactly what we are doing with 
this State and local government pilot--with this pilot project 
that I have described to you.
    One of the efforts is to grow our open source program in 
accordance with what they really need at the very local level. 
I think we have a very good idea, as a result of this pilot 
project in five States.
    At the same time, we are getting four billets from the 
Director of National Intelligence. We are also getting some 
small funding support to put against our pilot project, which 
we hope to expand across the country. We also then need to 
train at the local level, how to use open source, what is of 
value and what isn't.
    So I am very, very pleased that our open source program is 
going to, I think, take--get real traction in this coming year. 
We would be happy to come back and talk to you in more detail 
on how we are using open source. There are a lot of research 
tools that will help you use open source more effectively, 
which the DNI and others and CIA have, which we would like to 
also use in working with State and local governments.
    Mr. Perlmutter. Thanks.
    The committee has a bill that I introduced that might 
assist you with respect to open source, although I think you 
really have a lot of the tools at your fingertips now. I am 
glad to see that you are really focusing on this subject.
    I guess the last question I have is, what kind of--you 
know, going back to the fusion centers, I always--when I am 
asked questions about homeland security when I am out on the 
stump in Colorado, I say one of the places where there has 
really been an improvement is the fact that the agencies, 
whether it is the CIA, DHS, FBI, are all talking to one another 
so that they get a whole picture of what might--what kinds of 
threats might exist.
    How are you coming up with credentialing so that 
information can go down to the local law enforcement agencies? 
Have you run into any trouble, you know, being able to pass 
that information down to the ground in Colorado or anyplace 
else?
    Mr. Allen. I think--I think we are making progress. I think 
we need to make more progress. We look to the National 
Counterterrorism Center, as Chair Harman said, to help be the 
overall integrator and assessor of terrorism threats, both 
domestic and foreign. But we are actually working very closely 
with the FBI and Central Intelligence Agency, other agencies 
that collect technical intelligence in order to write for 
release.
    We have sent something at the Secret level today to State 
fusion centers, which we worked jointly with the FBI, which I 
showed to the secretary this morning. I said, this threat we 
don't believe is serious, but here is an example of where we 
really have worked together with NCTC and the FBI; and the 
ITAC-G saw it and approved it as well.
    So I think things are starting to work the right direction. 
I think we are on course.
    Mr. Perlmutter. Okay. Thank you.
    Thanks, Madam Chair.
    Ms. Harman. Thank you. We have the ability to ask a second 
round of questions if Members are interested. I have just a 
couple things I would like to say, and other Members are 
welcome to do this. Mr. Reichert said that he stepped out 
momentarily but may be back as well. So I suggest we stick 
around just a little longer.
    Mr. Allen, you hear my frustration. We hear from people 
involved in the ITACG. There is no need to identify them, but 
they clearly communicate to us that they don't feel you are the 
full partner they expect.
    I have now some of the language from the joint explanatory 
statement to the 9/11 Act, and it tasks you to identify 
information that is of interest--this is through the ITACG--of 
interest to State, local and tribal law enforcement to produce 
reports which can be disseminated to them in an unclassified 
format, or at the lowest possible classification level, and to 
assist in the targeted dissemination of products to appropriate 
customers.
    So one of the three pieces here is, produce reports. I am 
not sure that your answer on the record was clear enough. Do 
you believe that the ITACG detailees are producers of 
intelligence products? Or do you believe that they are just 
supposed to provide advice?
    Mr. Allen. I believe that they are supposed to look at 
threats, stay abreast of the threats, because they have access 
to vast databases at the national counterterrorism 
workstations. We have made certain they have all the current 
activity and that they have all secure communications back to 
the rest of the intelligence community.
    In my view, they were not selected as terrorism in-depth 
analysts. Some of them are very good analysts, and they could 
produce information, additional information. But my view is 
that they are to look at all threats, all information as it 
flows in, to particularly look at products produced daily by 
the intelligence community, writ large--the Bureau, as well as 
ourselves, as well as the CIA and NCTC--and there is a plethora 
of that; and to ensure that there are those that have any 
interest at the State and local levels are sanitized, if 
necessary, and released at the official-use level or at a 
classified level that the States can use.
    That is what is occurring, and I am really impressed--
really, at what has occurred.
    In my two meetings with the advisory councils, we went 
through a lot of this. We are going to have a teleconference 
here in March with the advisory council, and then we are going 
to have another full face-to-face meeting in April. If there 
are problems as we get under way with this ITAC-G and if the 
members of the ITAC-G have issues, then I am happy to listen to 
them and to adjust accordingly.
    Ms. Harman. Well, I appreciate that, the last part of that 
answer, because I think they do have issues; and I hope you 
will invite them to talk to you directly about the issues that 
they have.
    Again, I am not trying to be a counselor here to make job 
satisfaction better. My goal is to make certain that the 
provisions of the law, which I now have in front of me, are 
complied with and, bottom line, that accurate, actionable and 
timely information is communicated through this National Fusion 
Center that we have set up, that President Bush has set up, to 
State, local and tribal first responders so that they can 
prevent harm to our communities.
    I know you share the goal. The question is, are you 
personally and is I&A as an institution doing its maximum to 
make certain that this structure we have set up works?
    I urge you to listen to what the people who work there tell 
you. I believe that there could well be some improvements that 
would reach our goal faster. I assume you share my interest in 
reaching that goal.
    Mr. Allen. I want to reach that goal and I will certainly 
listen. I am in frequent communication with the acting director 
of the ITAC-G, who is one of my senior officers.
    Ms. Harman. Great. Let me ask you just a few more questions 
about this and then yield to others.
    Are you taking steps to put to use input from the ITACG in 
your own intelligence products?
    Mr. Allen. Yes. As they look at issues, what they think 
should go to State and local governments, and advise us on what 
should--if there is an item that has been produced by the 
community that they think urgently needs to get to State and 
local, we take their advice.
    Ms. Harman. What if someone, a particular ITACG detailee 
thinks that some piece of intelligence needs to be disseminated 
to his or her home agency because that intelligence might be 
relevant, how do you respond to a request like that?
    Mr. Allen. We believe that the State and local 
representatives are there to represent State and local 
interests at large, whether it is fusion centers or police 
departments or fire administrators or tribal. But if they can 
make an argument that this particular fusion center in this 
State and the Joint Terrorism Task Force, the Bureau out in the 
State, needs to see it, I am sure that we would work very 
closely with the FBI and with Mike Leiter and the office--and 
the ITAC-G to get that product out there.
    Ms. Harman. Fine.
    Well, let me just summarize, I have pushed this issue 
pretty hard. We think the ITACG and, more importantly, the NCTC 
is a very critical part of our intelligence gathering and our 
intelligence dissemination effort. We want to make absolutely 
sure that State, local and tribal representatives have full 
participation there because, No. 1, they add value, and No. 2, 
they become more sophisticated by participating in the effort.
    You agree with that, right?
    Mr. Allen. I agree. I believe that they are developing a 
deep appreciation for what is and is not available at the 
Federal level. Having a tribal and having a fire administration 
representative there representing the fire departments of this 
country, I think is badly needed.
    Ms. Harman. Finally, it is absolutely critical that as we 
move forward, we break down stovepipes, we change what has been 
called the ``need-to-know'' culture into a ``need-to-share'' 
culture, fully respecting the need to protect sources and 
methods. Everybody understands that.
    But we don't need to build parallel universes. We need to 
build one joint command that fuses intelligence as effectively 
as possible. That is the way we will connect the dots.
    This is something that I am absolutely passionate about. 
That is why we made mistakes pre-9/11. So I am urging you in 
every way I can to review the reports you are about to send us 
personally.
    I know you are coming up here again. We are going to have a 
hearing on the ITACG report. We remain keenly interested in 
helping that function be as effective as possible.
    I now yield for additional questions, first to Mr. Carney.
    Mr. Carney. Thank you again, Madam Chair.
    Mr. Allen, a couple things. I just kind of want to 
understand sort of the flow, the architectural flow of the 
intelligence. Is it top-down, bottom-up, is it a push-pull 
system? You know, move from column A to column B?
    Mr. Allen. The intelligence in DHS--as you know, we work 
border security, the movement of chemical, biological, 
radiological and other dangerous materials across our border. 
We support the Secretary and the Department in much of this.
    We work protecting critical infrastructures, a lot of that 
data does flow down. On occasion we are getting more and more 
from the fusion centers of pushing--of the fusion center 
pushing things up, just as Chief Bratton said. Look, we have 
worked with the Federal Government to produce this wonderful 
assessment. We want to see more of this.
    So I welcome--I welcome the State fusion center. The 
Washington State Fusion Center produced a brilliant piece which 
we then turned into something that was sent to the President. 
So that kind of work, I think, is remarkable.
    Mr. Carney. Okay. You know I have a background in 
intelligence, and we are all familiar with the intelligence 
cycle, such as it is.
    Would I recognize that within the ITAC-G system?
    Mr. Allen. Within the ITAC-G system, I think you would see 
the requirements, the needs; and some of the pilot projects 
that were written up in The Wall Street Journal inaccurately, I 
think, reflect trying to determine the needs. The ITAC-G looks 
at that, looks at the flow of information from across the 
community.
    We are talking about a vast flow. The ITAC-G is, at this 
stage, a small organization with contractors--10, 12 people; it 
is not a huge organization at this stage. But then their job is 
to ensure that they identify those data, those intelligence 
pieces that need to go in a timely basis down to the very local 
level; and they work to do that.
    What they have done to date is not inconsequential, it is 
not trivial; it is very significant.
    Mr. Carney. Another thing I was very, very curious about in 
this whole process in the ITAC-G and the fusion centers, does 
FISA information ever come in and play a role in that?
    Mr. Allen. I don't think I can answer that question in this 
particular forum.
    Mr. Carney. Okay.
    No further questions, ma'am. Thanks. Thank you, Ms. Chair.
    Ms. Harman. Thank you, Mr. Carney.
    Mr. Perlmutter, do you have any additional questions?
    Mr. Perlmutter. Only questions that I don't think he can 
answer in this particular forum. But I do have one.
    Mr. Secretary, assume for the moment, or just for 
argument's sake, that the President's budgetary priorities and 
the budgetary priorities of the Congress are different, and we 
don't come to some kind of agreement on appropriations bills.
    What effect would a continuing resolution have on the 
budget in your Department?
    Mr. Allen. It would have--it would have a very, very 
serious effect. When we were under continuing resolution last 
fall and winter, I could not send people to travel. We held up 
sending officers out to the fusion centers. It also inhibited 
us in a number of ways in continuing, undertaking any new 
initiative or expanding what we do. Continuing resolutions are 
very detrimental to the efficacy of the Federal Government.
    Mr. Perlmutter. I hope we don't come to that kind of a 
result this time around. But I would suggest you have a 
contingency plan in place.
    Mr. Allen. I thank you very much for that, because I think 
the risks and the threat to this country, the inbound threat in 
particular, is so serious that we have to have something in 
place to stay effective during any long continuing resolution.
    Mr. Perlmutter. I was going to ask some questions about 
FISA. But I will leave those for another day in another 
setting. The last question I have, on the security clearances 
for local law enforcement, is there a backlog in clearing 
individuals? Like, let's say, in Colorado there is a fusion 
center now, what problems, if any, are you running into in 
clearing officers so that they can get, you know, more general 
intelligence information?
    Mr. Allen. I don't know of any major problems.
    When I came to the Department, we had major problems in 
moving security clearances to State and local. We have cleared 
a lot of people--Nevada and California and New York; we have 
cleared over 100 people in New York City alone.
    So we do this, and most of the information, you know, can 
easily flow to those people at the Secret level. Getting Top 
Secret, Compartmented clearances takes longer, but we are doing 
that. We did that for the people coming in to the State and 
local officials in the ITAC-G.
    The DNI is leading a study to expedite the clearances. It 
takes about an average of several months. The President has, as 
you know, sent out a statement that says we have to do a better 
job in expediting the clearance of personnel, Government and 
non-Government; and I think we have made a lot of progress. I 
worked very closely with the Director of Security and the 
Department to expedite those clearances, and I am quite a tiger 
at pushing clearances and getting people cleared.
    Mr. Perlmutter. Thank you.
    Ms. Harman. I would just add, Mr. Perlmutter, that one of 
the things we are trying to do at this end is to reduce the 
amount of information that is classified. We have some 
legislation in draft form that we have been circulating and we 
have introduced one bill. But we are hoping to produce a 
bipartisan effort that will move faster. That, I assume, is a 
goal, again, that you share; is it not, Mr. Allen?
    Mr. Allen. It is a goal I share and it is a goal that Mike 
McConnell shares as a DNI, and he has given David Shedd, ahead 
of his plans and policy, you know, full authority to move 
swiftly on getting clearances.
    Ms. Harman. Well, it is not just getting clearances. It is 
reducing the amount of classified information which would 
therefore guarantee that people who needed to see it, who did 
not have clearances, could see it.
    Mr. Allen. That is absolutely the case. We try to write at 
the lowest classification possible the work that we do in our 
Critical Infrastructure Threat Assessment Division, that I run. 
It is amazing what we can get down to ``official use,'' where 
it talks about real threats to various sectors of our private--
of our private industry and the steps that these sectors can 
take to mitigate the threat.
    I am rather amazed at what we have out there on a day-to-
day basis.
    Ms. Harman. Well, I hope we have more out there. I hope 
that what is out there is accurate and actionable, and that we 
don't have an attack on our homeland because the stovepipes 
didn't permit the sharing of information in a timely fashion.
    So I appreciate your answers, Mr. Allen. We are going to 
keep at this information. We are reviewing your request for 
additional funds; we will review those carefully. We understand 
your priorities, and I think we have been crystal clear about 
our priorities, which are to make absolutely certain that 
State, local and tribal representatives are fully involved in 
the process of preparing and disseminating information that 
they are going to end up using to help protect our communities.
    This hearing is adjourned.
    [Whereupon, at 5:20 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
